<html>
<title> - THE UIGHURS: A HISTORY OF PERSECUTION</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                 THE UIGHURS: A HISTORY OF PERSECUTION

=======================================================================

                                HEARING

                               BEFORE THE

SUBCOMMITTEE ON INTERNATIONAL ORGANIZATIONS, HUMAN RIGHTS AND OVERSIGHT

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 10, 2009

                               __________

                           Serial No. 111-28

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______


                  U.S. GOVERNMENT PRINTING OFFICE
50-294                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="baddcad5fad9cfc9ced2dfd6ca94d9d5d794">[email&#160;protected]</a>  


                      COMMITTEE ON FOREIGN AFFAIRS

                 HOWARD L. BERMAN, California, Chairman
GARY L. ACKERMAN, New York           ILEANA ROS-LEHTINEN, Florida
ENI F.H. FALEOMAVAEGA, American      CHRISTOPHER H. SMITH, New Jersey
    Samoa                            DAN BURTON, Indiana
DONALD M. PAYNE, New Jersey          ELTON GALLEGLY, California
BRAD SHERMAN, California             DANA ROHRABACHER, California
ROBERT WEXLER, Florida               DONALD A. MANZULLO, Illinois
ELIOT L. ENGEL, New York             EDWARD R. ROYCE, California
BILL DELAHUNT, Massachusetts         RON PAUL, Texas
GREGORY W. MEEKS, New York           JEFF FLAKE, Arizona
DIANE E. WATSON, California          MIKE PENCE, Indiana
RUSS CARNAHAN, Missouri              JOE WILSON, South Carolina
ALBIO SIRES, New Jersey              JOHN BOOZMAN, Arkansas
GERALD E. CONNOLLY, Virginia         J. GRESHAM BARRETT, South Carolina
MICHAEL E. McMAHON, New York         CONNIE MACK, Florida
JOHN S. TANNER, Tennessee            JEFF FORTENBERRY, Nebraska
GENE GREEN, Texas                    MICHAEL T. McCAUL, Texas
LYNN WOOLSEY, California<greek-l>As  TED POE, Texas
    of 3/12/09 deg.                  BOB INGLIS, South Carolina
SHEILA JACKSON LEE, Texas            GUS BILIRAKIS, Florida
BARBARA LEE, California
SHELLEY BERKLEY, Nevada
JOSEPH CROWLEY, New York
MIKE ROSS, Arkansas
BRAD MILLER, North Carolina
DAVID SCOTT, Georgia
JIM COSTA, California
KEITH ELLISON, Minnesota
GABRIELLE GIFFORDS, Arizona
RON KLEIN, Florida
                   Richard J. Kessler, Staff Director
                Yleem Poblete, Republican Staff Director
                                 ------                                

              Subcommittee on International Organizations,
                       Human Rights and Oversight

                 BILL DELAHUNT, Massachusetts, Chairman
RUSS CARNAHAN, Missouri              DANA ROHRABACHER, California
KEITH ELLISON, Minnesota             RON PAUL, Texas
DONALD M. PAYNE, New Jersey          TED POE, Texas
ROBERT WEXLER, Florida
             Cliff Stammerman, Subcommittee Staff Director
          Paul Berkowitz, Republican Professional Staff Member
                      Brian Forni, Staff Associate


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mrs. Rebiya Kadeer, President, World Uyghur Congress.............    10
Ms. Kara Miriam Abramson, Advocacy Director, Congressional-
  Executive Commission on China..................................    19
Ms. Felice D. Gaer, Chair, U.S. Commission on International 
  Religious Freedom..............................................    23
Mr. Nury Turkel, Uighur Rights Activist and Attorney.............    34

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mrs. Rebiya Kadeer: Prepared statement...........................    14
Ms. Kara Miriam Abramson: Prepared statement.....................    21
Ms. Felice D. Gaer: Prepared statement...........................    26
Mr. Nury Turkel: Prepared statement..............................    38

                                APPENDIX

Hearing notice...................................................    60
Hearing minutes..................................................    61


                 THE UIGHURS: A HISTORY OF PERSECUTION

                              ----------                              


                        WEDNESDAY, JUNE 10, 2009

              House of Representatives,    
   Subcommittee on International Organizations,    
                            Human Rights and Oversight,    
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:11 a.m. in 
room 2172, Rayburn House Office Building, Hon. Bill Delahunt 
(chairman of the subcommittee) presiding.
    Mr. Delahunt. This hearing will come to order. I represent 
Plymouth, Massachusetts, which is America's hometown. Almost 
400 years ago a small vessel called the Mayflower made landfall 
there and forever changed the history of the world. The men and 
women and children on that vessel were seeking religious 
liberty and freedom from persecution. Over the span of American 
history, many millions from many lands have followed those 
pilgrims to our shores and have sought refuge.
    George Washington once wrote that he hoped America, and 
these are his words, might become a safe and agreeable asylum 
to the virtuous and persecuted part of mankind in whatever 
nation they might belong. For most of our history we have 
honored President Washington's hope for that part of mankind: 
The virtuous and the persecuted. That is why we are here today, 
to receive testimony concerning the Uighurs who are an ethnic 
Muslin minority from the northwest of China.
    Twenty-two Uighurs were arrested in late 2001, and 17 are 
still detained at Guantanamo Bay, while five were previously 
resettled in Albania. It is our purpose to determine whether 
the Uighurs, previously or currently detained at Guantanamo 
are, to use Washington's words, part of the virtuous and 
persecuted, or, as one of our colleagues has seemed to 
conclude, are terrorists.
    In other words, are the Uighurs freedom fighters worthy of 
our support and assistance, or are they a threat to our 
national security. Now, it is important to know that in June 
2007 the House passed a resolution, H.R. 497, that acknowledged 
that China had, and was using, the war on terror to oppress the 
Uighurs. The resolution states that the Chinese Communists had, 
and this is the language of the resolution, manipulated the 
strategic objectives of the international war on terror to 
increase their cultural and religious oppression of the Muslim 
population residing in the Uighur Autonomous Region.
    Now, let me repeat that, and please reflect. The Chinese 
Communists have manipulated the strategic objectives of the 
international war on terror to increase their cultural and 
religious oppression of the Uighur minority. What better way to 
achieve their objectives than to label the Uighurs as 
terrorists? What better way for the Chinese terrorists to 
achieve their goals? Now we hear the term terrorist applied to 
the 22 Uighur men who either are or are currently detained at 
Guantanamo Bay.
    My question and my concern is this: Have some of us been 
duped by the Communist Chinese regime? Well, today we begin an 
effort to find answers to that and many other questions. We 
will undertake a thorough effort to find out the truth because 
we are the Subcommittee on Oversight and we take that 
responsibility seriously. This committee also has within its 
jurisdiction the responsibility to review human rights 
conditions worldwide.
    I would submit that the American concept of due process is 
also a human right and it would appear that no due process has 
been afforded the Uighurs at Guantanamo until recently. It 
should be noted for the record that the Bush administration 
concluded that those that are currently there, those 17 
Uighurs, were not a threat to the United States. That is the 
previous administration. A Federal Court ordered these Uighurs 
released in a seminal opinion finding the men to be nonenemy 
combatants and not a risk to the United States' national 
security; yet, some would seem to deny these men redress and 
continue to detain them if no other country would accept them. 
That was their position.
    We even had a former Speaker of the House of 
Representatives, Mr. Gingrich, who said we should send them 
back to China. I would submit that that would be an act that 
would undoubtedly violate our domestic laws and treaty 
obligations against the convention against torture because it 
is indisputable that the Uighurs have been a persecuted 
minority in China and if they were returned there would have 
undoubtedly faced torture and possibly death. That would be a 
stain on our national honor, particularly in the light of those 
words of George Washington.
    Well, as I indicated, today is the first in a series of 
hearings we plan to hold in which we will make an effort to 
find out what is true and learn more about the treatment of the 
Uighurs in China and the circumstances surrounding their 
arrival and their detention at Guantanamo. Now, there have been 
some reports today, unconfirmed, that the Uighurs may be 
resettled, all 17, in the nation of Palau. Maybe their 
President, Johnson Toribiong, maybe he read those words of 
George Washington and is giving refuge for the virtuous and the 
persecuted. We will make an effort to find out.
    As I said, we plan to pursue this because we should learn 
whatever lessons there are from the detention and the treatment 
of the Uighurs. It is important for us as we move forward 
because the President has announced that he intends to close 
Guantanamo. What we want to do is ensure fairness and revealing 
the truth rather than opinion to our colleagues and to the 
American people.
    Well, as to the treatment of the Uighurs in China, which is 
what we are going to do here today, our colleague Chris Smith 
eloquently stated before, and I am quoting from him, that ``the 
list of serious human rights abuses committed by the Chinese 
Government is long. It includes the persuasive systematic 
exploitation of women and the murder of their children through 
forced abortion as part of its coercive one child per couple 
policy.''
    Against the Uighurs it is used as a means of genocide of 
trying to destroy an entire race and ethnic group of people 
because of who they are. The imprisonment of democratic 
dissidents and religious believers remain a pervasive problem 
in China. Congressman Smith went on to say that if a Uighur or 
anyone is arrested, the way they get a conviction is that they 
torture you. Eventually, you sign on the bottom line and admit 
your so-called crimes.
    Again, there is abuse, after abuse, after abuse, and the 
Uighurs bear the brunt of it. Imagine sending them back to 
China as a solution to the conundrum in which we find ourselves 
today. The 2008 human rights report published by our own 
Department of State confirms what Congressman Smith and others 
have publicly stated. I am going to read just a few excerpts 
for the record from that report.
    During the year the Chinese Government increased its severe 
cultural and religious persecution of the ethnic minorities in 
the Tibetan areas and in the Uighur Autonomous Region. 
Executions of Uighurs, whom authorities accused of separatism, 
but which some observers claim were politically motivated, were 
reported during prior reporting periods. Regulations 
restricting Muslims' religious activity, teaching in placing of 
worship, continued to be implemented forcibly in the Uighur 
Autonomous Region.
    Measures to tighten control over religion in the Uighur 
Autonomous Region included increasing surveillance of mosques, 
religious leaders and practitioners, detaining and arresting 
persons engaged in unauthorized religious activities. The 
government in the Uighur Autonomous Region took measures to 
dilute expressions of Uighur identity, including measures to 
reduce education in ethnic minority languages.
    During the year, authorities increased repression in the 
Uighur Autonomous Region and targeted the region's ethnic 
Uighur population. The Chinese Government continued to repress 
Uighurs expressing peaceful political dissent and independent 
Muslim religious leaders often citing counterterrorism as the 
reason for taking action. The excuse of terrorism to suppress 
and oppress a religious minority. Here we are today. Many 
Americans are just discovering that there is a group of people 
who are called the Uighurs, and today we will learn something 
about them.
    Although Muslim, we will learn that the Uighur men and 
women are not Jihadees but are a peace loving people who seek 
religious liberty and are proponents of democracy. We will 
learn about their treatment in Communist China and their likely 
fade if they should be sent back to China. Well, now let me 
turn to my friend and colleague, the ranking member of this 
Subcommittee on Oversight and Human Rights, the gentleman from 
California, Dana Rohrabacher.
    Mr. Rohrabacher. Some people might be surprised to see, Mr. 
Chairman, that I am being challenged as being who is the most 
anti-Communist on this panel. I would note that last weekend I 
was out in the ocean doing what I love to do, which is surfing 
at sunset, the beautiful horizon there to the west, and I 
thought of the words that Ronald Reagan once told me and has 
repeated many times, and I don't want to compete with you, Mr. 
Chairman, in terms of talking about your beautiful coastline, 
but Ronald Reagan did mention that had the pilgrims landed in 
California instead of on Plymouth Rock, the east coast would 
still be uninhabited.
    I appreciate your remarks today. We have so much to be 
grateful for. I realize when I am sitting there on my surfboard 
and I am looking into the west and looking into the sunset that 
there are people who live on the other side of that lake and we 
are grateful for the freedom that we have here but we must 
remain in solidarity with human beings who share our values, 
whether here, or there, or there. The fact is that America is a 
dream, as you pointed out, of a place where we identify with 
those people throughout the world who are struggling for their 
freedom and their liberty.
    If we ever lose that, we have lost the essence of what 
America was supposed to be all about. I have always felt that 
that is what my particular party was all about, and I am more 
than disturbed that some of my fellow Republicans have been 
defending the Guantanamo Bay prisoner situation with the worst 
possible arguments by focusing on the potential release of 17 
Uighurs rather than emphasizing that Guantanamo has been a 
perfect location to imprison blood thirsty murderers who would 
murder our families, terrorists.
    The line of attack on this effort, what I have seen, in 
terms of focusing on the release of the Uighurs when trying to 
discuss the Guantanamo issue has been a political attack, I 
would say a very despicable political attack, which is trying 
to frighten the American people at the expense of 17 helpless 
human beings. The facts are that the Uighurs are not enemy 
combatants and I happen to support, and have always supported, 
Guantanamo being used as a location for us to imprison 
terrorists who threaten to kill our families, who hate America.
    Well, if you believe that, which I felt my fellow 
Republicans believed that, we should be the ones who are in the 
forefront of trying to make sure that when mistakes are made 
that they are admitted and corrected as soon as possible, 
otherwise, what kind of people are we if we don't? We know we 
are in a terrible fight with terrorists who have already 
slaughtered 3,000 of our fellow citizens.
    When you fight those kind of battles and you have to have 
situations like Guantanamo, it behooves us to go out of our way 
and to be as, and to put as much energy as we can into ensuring 
that there aren't mistakes made so that the validity of our 
battle is underscored. As we say, the Uighurs are not enemy 
combatants, they are friends and admirers of the United States, 
as I have said in many occasions long before this. Their 
enemies are the dictators in Beijing who rule over the People's 
Republic of China and invaded, and now occupy, the Uighur 
country of east Turkistan.
    The Bush administration that held the Uighurs in Guantanamo 
labeled them as terrorists to appease the Chinese dictatorship 
in a pathetic attempt to gain its support at the beginning of 
the war against Iraq and to assure its continued purchase of 
U.S. Treasuries. Many, if not all, the negative allegations 
against the Uighurs can be traced back to Chinese intelligence 
whose purpose is to snuff out an independence movement that 
challenges the Communist bosses in Beijing.
    No patriot, certainly no Republican, should fall for this 
manipulation which has us doing Beijing's bidding. It is a 
travesty. Former Speaker Newt Gingrich, has been in the 
forefront of defending this miscarriage of justice, and 
unfortunately, at the service of the Communist Party 
dictatorship of China. As early as 2003 for 10, and continuing 
through 2008 for others, the United States military concluded 
that the Uighurs should be released since early as 2003.
    These determinations were predicated on finding that each 
Uighur does not pose a continuing threat to the United States 
or its allies in our ongoing conflict with al-Qaeda. Two Judges 
on the D.C. Federal Panel that reviewed the Uighurs' case, two 
of them were appointed by Republicans. The Court found that the 
Uighurs had been turned in by Pakistani villagers, not caught 
on the battlefield, and also acknowledged that no source 
document evidence was introduced to indicate that the Uighurs 
had actually joined the east Turkistan Islamic movement, that 
is ETIM, or that they had personally committed any hostile acts 
against the United States or its coalition partners.
    Of course this is moot, however, because the Court also 
recognized that there was a failure to establish the ETIM as 
being associated with al-Qaeda or the Taliban and because of 
this found there was insufficient evidence to classify the 
Uighurs as enemy combatants. The Uighurs were also recommended 
for release because there is ``substantial support'' for the 
claim that the source of evidence against them was Communist 
China and that the Judges determined that the case ``maintains 
that Chinese reporting on the subject of the Uighurs cannot be 
regarded as objective and offers substantial support for that 
proposition as well.''
    An FBI agent reported that ``the Uighurs are moderate 
Muslims who occupy the east Turkistan, which was taken over by 
the Chinese and renamed Xinjiang,'' I guess this is how you 
pronounce it, ``a province of China.'' The Uighurs were offered 
land in Afghanistan in order to gather themselves together in 
their personal opposition to Chinese oppression. Uighurs 
consider themselves to be fighting for democracy and they 
idolized the United States, and this is all from the FBI 
determination, ``although the Uighurs are Muslim, their agenda 
did not appear to include Islamic radicalism.''
    Many conservatives knowledgeable about the facts have also 
come out in opposition to holding the Uighurs. I am very proud 
of these people, and I think that these people have been 
holding true to the values that at least my party is supposed 
to be about. It is unfortunate that some other political 
leaders in my party have not seemed to be so principled.
    The list includes Mickey Edwards, president of the Aspen 
Institute, lecturer at the Woodrow Wilson School of Princeton 
University; Thomas B. Evans, a former Member of Congress and a 
former co-chairman of the Republican National Committee; Bruce 
Fein, former Associate Deputy/Associate Attorney General to 
Ronald Reagan; David Keaton, chairman of the American 
Conservative Union; William Sessions, former Director of the 
FBI and former Chief Judge of the U.S. District Court for the 
Western District of Texas; John Whitehead, president of the 
Rutherford Institute; Laurence Wilkerson, former Chief of Staff 
to Secretary of State Colin Powell.
    All of these my fellow Republicans who have been taking a 
principle stand rather than playing politics with the lives of 
these 17 Uighurs. An ongoing attempt to appease Communist China 
is behind the detention of the 17 Uighurs currently held in 
Guantanamo. By detaining the Uighurs, the United States is an 
accomplice to China's discrimination against the Uighur people 
and the illegal occupation of east Turkistan and we should all 
recognize this.
    An FBI report noted that Communist Chinese agents were 
allowed into Guantanamo in 2002 to interrogate, torture and 
threaten these Uighurs even though the United States has 
condemned China's human rights abuses of the Uighurs.
    Mr. Delahunt. Would the gentleman yield for a moment?
    Mr. Rohrabacher. I certainly will.
    Mr. Delahunt. I ask the gentleman if he has a memory of the 
request that you and I made, myself, as chair of this 
subcommittee, and you, as the ranking member, of our 
Government, the executive branch, for you and myself to have 
access to the Uighur detainees. Do you have a memory of that?
    Mr. Rohrabacher. I certainly do.
    Mr. Delahunt. While it would appear that Communist Chinese 
intelligence agents were granted access, the response to you 
and to me was deafening silence. I find that totally 
unacceptable and offensive.
    Mr. Rohrabacher. It is the type of, well, it is a comment 
on the current reality we live with that our Government feels 
so subservient to Communist Chinese bosses that their agents 
are able to interrogate people who are being held at an 
American military base in custody but that members of the 
United States Congress are not granted that same privilege.
    Amnesty International has found that China ``continues to 
brutally suppress any peaceful political, religious and 
cultural activities of Uighurs and enforce a birth control 
policy that compels minority Uighur women to undergo forced 
abortions and sterilization.'' How could we not see that by 
detaining these men we were only participants in China's 
hateful and discriminatory policies toward the Uighurs, China's 
attempt to suppress these people?
    The Republican Party should not be in the business of 
supporting the Chinese Communist Party's self-serving vision of 
what is right and what is wrong. We Americans should stand for 
a different principle in this, we should stand above this, 
rather than momentary deals made with dictators. If any country 
should stand for principle, it should be ours because there is 
no hope in the world, not just for the Uighurs, but for anybody 
who believes in liberty and justice, unless we Americans hold 
firm to our standards and our principles.
    Most important in this case, we need to be truthful. I 
happen to have always supported Guantanamo Bay as a prison and 
I have supported enhanced interrogation during a time when our 
country is at war with the radical Islamists who would murder 
our people, and did murder our people when they slaughtered 
3,000 of our citizens on 9/11. I have three children at home, 
my neighbors have children. It is our job to protect the 
children and the lives of our people all over the United States 
of America.
    If we hold that to be true, and we are committed to this 
war, and that Guantanamo, I believe, has been playing an 
important part of that, we must have the courage to admit our 
mistakes when we make mistakes. Whatever human endeavor is made 
by the United States or anyone else, mistakes will be made. If 
we don't admit our mistakes and we don't try to correct them, 
we are adding on to what was a mistake. We are then making it a 
sinful decision.
    We need to admit a mistake was made when we held the 
Uighurs in the first place. They were sent to us to collect a 
bounty. That was the motive of people who sent them to us. We 
should have realized and been honest enough to realize this 
needs much further looking into than in a case where most of 
the people who are now being held in Guantanamo, if not all of 
them, most of the people being held there were not turned in 
for people with a bounty, but instead were picked up on the 
battlefield and had much evidence that they had actually come 
from other countries to join the al-Qaeda foreign legion and to 
basically serve as an army to attack the United States.
    So with that said, Mr. Chairman, it is my honor to sit here 
with you and to try to bring to light the facts behind this 
case, this very murky episode, in the war against radical 
Islam. Again, let me just note while we move forward to try to 
do justice to the Uighurs and admit our mistakes, I do not 
believe that that means that we in some way in this war against 
radical Islam, which was declared on us, that we are in a 
morally inferior position.
    We should be proud of the fact that we are protecting 
ourselves and trying to defend the world and the decent people 
of this world against this force, you know, that actually holds 
all of our values, whether religious freedom or how we treat 
women, that it holds them in contempt and would declare us 
their enemies. So with that said, let us get down and try to 
get the facts out and do our duty. That is what this is about. 
Thank you, Mr. Chairman.
    Mr. Delahunt. Well, thank you, Dana, and never let it be 
said that you were not an individual of strong convictions and 
profound courage. We agree on very little. I would close 
Guantanamo, I am opposed to, I will use the euphemism, enhanced 
interrogation techniques, but one thing that I share with my 
friend, and he is my friend, is whatever the facts are we will 
go there, we will search for the truth. This particular episode 
of the Uighurs deserves the kind of transparency that the 
President has referred to.
    Wherever these 17 men end up, and hopefully they are on 
their way to that island in the Pacific, which I understand has 
great surfing, Mr. Rohrabacher, whatever happens, it is 
important for us to learn from this. I have always respected 
anyone who can acknowledge mistakes and learn from those 
mistakes, and you clearly are an extraordinary example of that 
kind of individual. I have a lot of work to do with you, 
however, on some other issues, but we will discuss that in a 
private moment.
    The vice chair of this subcommittee is Mr. Carnahan. If he 
wishes to make a statement.
    Mr. Carnahan. Thank you, Mr. Chairman and Ranking Member. 
Just briefly, you know, as we are working to reengage our 
allies and partners around the world it is important, I 
believe, that we work with all countries on human rights, and 
equality and religious freedom. Last week in Cairo, President 
Obama spoke about religious freedom. He said that freedom of 
religion is central to the ability of people to live together 
and that faith should bring us together.
    I will be interested to hear what the witnesses have to say 
about how they support the Uighur people. Ms. Gaer, your 
organization's recent report was mentioned in the article in 
The Economist last week that suggested the U.S. needs to 
actively support religious freedom as part of our foreign 
policy. I would be very interested in hearing your views and to 
hear you expand about that. Again, just wanted to thank all the 
witnesses for being here today with regard to this important 
issue. Thank you, Mr. Chairman.
    Mr. Delahunt. Thank you, Mr. Carnahan. The distinguished 
gentleman from New Jersey, we are joined by Mr. Payne. Does he 
wish to make a statement?
    Mr. Payne. Well, I will be very brief. Let me just commend 
you for calling this hearing. I think that it is very 
important. It is amazing that we have such positive relations 
with the People's Republic of China, a country that says we 
will execute these people if they come home. We really ought to 
have higher standards. I agree with the chairman, too, that 
this so-called enhanced interrogation is wrong. If we bring 
ourselves down to where the worst of the world is, then we are 
simply wallowing in the gutter.
    The sad part is that perhaps some of these Uighurs were 
enhancely interrogated. Innocent people should not be subjected 
to the brutality of torture; however, and now we are finding 
that they will be released, and so that is why it is wrong that 
our nation will debate whether, as Mr. Cheney did, should 
torture be done? He supported it whole-heartedly. That is not 
the purpose for this hearing; however, I am sure that some of 
these innocent people were brutalized, and so I can't 
understand how some of us can say we embrace it, it is right, 
it is the way to go, when innocent people are brutalized, and 
anyone is brutalized.
    I just returned from an African country where a person was 
water boarded, and I have heard about it from time to time, but 
to hear him talk about how you are immersed under water and 
body hits so you have to take deep breaths as the water comes 
in. This is something that we did. It is absolutely wrong. I 
yield back. Thank you.
    Mr. Delahunt. Thank you, Mr. Payne. I just want it to be 
clear. There would appear to be no allegations that I am aware 
of that the treatment of the Uighurs by the Americans 
implicated any enhanced interrogation techniques. Obviously, we 
will make that inquiry. However, what I am unaware of is how 
they were treated when those Communist Chinese intelligence 
agents were allowed access to those. There are some reports 
that there were not only interrogated, but intimidated and 
threatened in Guantanamo not by Americans, but by Communist 
Chinese intelligence agents.
    Mr. Rohrabacher, we are going to make every effort to find 
the truth of that particular allegation as well. Now let me 
introduce an extremely distinguished panel of witnesses, and 
let me begin by introducing a remarkable woman, Ms. Kadeer. She 
has led an incredible life and is currently the democratic, 
that is a small ``D,'' leader of the Uighur people worldwide. 
She is the mother of 11 children and is a former laundress 
turned a successful businessperson.
    She spent nearly 6 years in a Chinese prison for 
criticizing China's human rights violations and defending 
Uighur freedom. In 1999, Ms. Kadeer was arrested while on her 
way to meet a United States congressional delegation to discuss 
human rights issues. For her actions, she was sentenced to 8 
years imprisonment in March 2000 following a secret trial. 
During her imprisonment, Ms. Kadeer witnessed the beating and 
torture of other prisoners and was forced to spend 2 year in 
solitary confinement.
    Since arriving in the United States, Ms. Kadeer has 
actively campaigned for the rights of the Uighur people. She 
was nominated for the Nobel Peace Prize in 2006, 2007 and 2008. 
In 2005, she founded the International Uighur Human Rights and 
Democracy Foundation here in Washington, D.C., which again 
works to promote human rights for Uighur children and women 
living in the autonomous region. In 2006, she became the 
President of the Uighur American Association and President of 
the World Uighur Congress, which represents the interests of 
the Uighur diaspora.
    In retaliation for her advocacy, her children have been 
persecuted. In spring of 2006, three of her sons were detained 
and beaten and other family members, including her brother, her 
daughter and several grandchildren, were placed under house 
arrest. Currently, two of her sons are in a Communist Chinese 
prison for tax evasion in one case, and in the other, for 
instigating and engaging in secessionist activities.
    President Bush recognized Ms. Kadeer in a speech he 
delivered in Czechoslovakia, in Prague, by stating, and these 
are his words, ``Another dissident I will meet with here is 
Rebiya Kadeer of China whose sons have been jailed on what we 
believe is an act of retaliation for her human rights 
activities. The talent of men and women like Ms. Kadeer is the 
greatest resource for their nations, far more valuable than the 
weapons of their army or oil under their ground.'' Ms. Kadeer, 
it is an honor for all of us to have you here today and hear 
your story.
    Next, we welcome Ms. Felice Gaer, chair of the U.S. 
Commission on International Religious Freedom. Ms. Gaer directs 
the Jacob Blaustein Institute for the Advancement of Human 
Rights of the American Jewish Committee which conducts research 
in advocacy to strengthen international human rights protection 
in institutions. She is also the first American to serve as an 
independent expert on the U.N. Committee against Torture.
    Nominated by the Clinton administration and renominated by 
the Bush administration, she has served on the committee since 
the year 2000, including as vice chair, general rapporteur, and 
as year round rapporteur on follow-up country conclusions. She 
is also a member on the Council of Foreign Relations and on the 
Advisory Committee of Human Rights Watch in Europe and central 
Asia, and is vice president of the International League on 
Human Rights.
    She is also a graduate of Wellesley College which is right 
outside of Boston, Massachusetts, which is near Plymouth, 
Massachusetts, America's hometown, and she has advanced degrees 
from Columbia University in New York. Welcome.
    I am also pleased to welcome Kara Abramson. She is an 
advocacy director at the Congressional Executive Commission on 
China where she focuses on ethnic minority rights and religious 
freedom in China. She received her bachelor's degree from 
Princeton and her J.D. degree from Harvard Law School where she 
focused on international human rights law. In addition, she has 
studied and researched the Chinese legal system as a Fulbright 
fellow in China, she has been published on numerous topics, 
including the Uighur Autonomous Region and Chinese legal 
education. Welcome to you, Ms. Abramson.
    You share, and it is spelled the same way, my daughter's 
first name, who I just was notified is delivering my first 
grandchild as we speak, so I might be distracted during the 
course of this hearing.
    Finally, I am also happy that my friend, Nury Turkel, can 
join us today. He is a Washington-based attorney whose practice 
focuses on commercial and regulatory measures, including 
antitrust issues, aviation matters and international 
agreements, among other things. In addition to his law 
practice, Nury has been, and continues to be, an active Uighur 
advocate and has testified not only before the United States 
Congress, but also spoken to the United States Military 
Academy, the National Defense University and Columbia 
University.
    He holds both a law and master's degree from American 
University here in Washington. Nury, welcome. It is always good 
to see you. Let us proceed. I think what we should do is begin 
because it is such an honor to have you here, Ms. Kadeer, with 
your testimony. Thank you.

   STATEMENT OF MRS. REBIYA KADEER, PRESIDENT, WORLD UYGHUR 
                            CONGRESS

    Mrs. Kadeer. Before I begin my testimony, Mr. Chairman, I 
would like to thank you and thank Congressman Rohrabacher for 
holding this very special hearing today. I know that if the 
Uighur people knew about how much you are well aware of the 
situation of the Uighur people, the suffering today, I know 
they would be so delighted that some Members of Congress in the 
United States, they actually understand our six decades 
suffering under Chinese Communist rule.
    Before I begin my testimony, I would like to state on the 
record that the Uighur people, together with all the freedom 
people, are opposed to terrorism and violence because we know 
that the Uighur people are also victim of terrorism. Since I do 
not speak English, Uighur American Association Vice President, 
Alim Seytoff, will read my statement.
    [The following testimony was delivered through an 
interpreter.]
    Mrs. Kadeer. Thank you for inviting me to speak on the 
persecution of the Uighur people by the Government of the 
People's Republic of China. Such interest in the plight of the 
Uighur people at the highest levels of the U.S. Government 
shines a light on the darkest corners of the Chinese Government 
repression and gives hope to millions of the Uighur people 
across the world. This year, China will enter its 60th year 
under the rule of the Chinese Communist Party.
    The pace of economic develop in the PRC since the inception 
of the reform era in the late 1970s has earned the CCP the 
admiration of many observers. However, in the rush to praise 
modern China, a 60-year history of political repression and the 
present day policy of minority persecution has been obscured. 
The Uighur people of east Turkistan have long been victims of 
CCP's 60 year authoritarian rule.
    In the years since the CCP gained control of east Turkistan 
in 1949 and before Deng Xiaoping launched his era of economic 
reforms, Uighurs were subjects to a number of destructive 
Communist-led campaigns and movements. From the purges of east 
Turkistan nationalists in the anti rights campaign of the late 
1950s to the starvation, exile and destruction of the Cultural 
Revolution between 1966 until 1967, Uighurs, along with 
millions of other victims, were persecuted by the CCP.
    However, Uighurs were also subjected to special campaigns 
specifically direct at them so as to dilute their unique ethnic 
identity. In early 1960s, the CCP administration investigated a 
forced resettlement policy with the aims of dispersing 
concentrations of Uighurs and of isolating Uighurs from their 
communities. In 1961, my family fell victim to this policy. We 
were forced to leave our home and to relocate far from our 
friends and relations.
    As is apparent, documenting the history of the Uighur 
persecution by the Chinese authorities is a long and a detailed 
undertaking which is full of personal stories, most likely lost 
due to the silencing of Uighur descent throughout the years. 
However, in this testimony I would like to focus on the present 
day persecution of the Uighurs and use this opportunity to 
outline the suffering of the Uighur people which is happening 
as we convene here now.
    At this point in history, the Uighurs of east Turkistan 
face a critical challenge to their very existence as a unique 
people. East Turkistan sits on valuable natural resources, 
namely oil, natural gas, and is strategically important due to 
its proximity to Russia, south Asia and central Asia. The 
Chinese Government's thirst for energy to drive its economy and 
its growing dominance in global affairs has made the Uighur 
presence in east Turkistan an inconvenience.
    In order to resolve this, the Chinese Government is 
undertaking methodical long and short term measures. These 
measures impact every area of Uighur society, including its 
politics, economics and culture. The message these measure 
spell out is clear: Uighurs must assimilate or face extinction. 
Wang Lequan, the Xinjiang party's secretary, has called the 
subjugation of the Uighur people a life and a death struggle. 
Since 9/11, the Chinese Government has used our Islamic faith 
against us and labeled the Uighurs as terrorists to justify 
crackdowns and security sweeps as part of the global war on 
terror.
    The Chinese authorities have also heavily promote the 
notion that a coordinated and organized Uighur terror network 
exists under the umbrella of an organization called the East 
Turkistan Islamic Movement, or something called Turkistan 
Islamic Party. It is not certain who are the actual members of 
ETIM or TIP. Independent observers are not even sure if ETIM 
actually exists. With regard to TIP, dots exist as to whether 
it is indeed a group operated by some Uighurs or a shadow 
terror organization created by the PRC authorities to demonize 
Uighur people's peaceful struggle against Chinese repression.
    It is in the national interest of China to have a 
radicalized Uighur group, such as ETIM or TIP, to justify the 
severe repression it carries out against the Uighur people, 
especially after 9/11. Using the terror threat as a pretext in 
the pre-Olympics period, the Chinese authorities were able to 
detain, arrest and even execute Uighurs for their peaceful 
opposition to the Chinese rule in east Turkistan. Because of 
time I will skip some of the details, and I am going to come 
back to my personal story.
    Traveling all over my homeland as a businesswoman and a 
philanthropist I witnessed the slow eradication of my people's 
religion, language and identity. I tried to help my people out 
of poverty, give opportunities to marginalized Uighurs and 
speak out against the injustices. For this, I paid a heavy 
price. I was once a political prisoner of the Chinese 
Government. I spent nearly 5 years in inhumane conditions for 
the price of my advocacy on behalf of the Uighur people in 
prison.
    In prison, I saw for myself torture, cruelty and act on my 
people by the Chinese authorities. Even in exile and among free 
people in the United States I am aware that I am subject to 
harassment from Chinese authorities, including surveillance of 
my activities at work and even at home. However, it is my two 
sons, Alim and Ablikim, who currently pay a greater price. 
Today, they suffer in a Chinese prison convicted on false and 
politically motivated charges.
    Alim was detained on May 30, 2006, and severely beaten by 
Chinese police on June 1, 2006. He was arraigned on Monday, 
June 10, 2006, on charges of attempting to split the state. On 
June 13, 2006, he was charged with tax evasion as a result of 
an investigation into the family business. He has reportedly 
been tortured and subject to physical abuse while in detention. 
He was reported to have confessed on or around July 1, 2006 to 
criminal and political charges against him as a direct 
consequence of being tortured by the Chinese authorities.
    In November 2006, Alim was sentenced to 7 years in prison 
and was fined US$62,500 <greek-l>U.S. dollars  deg.on charges 
of tax evasion. My second son, Ablikim, was detained on May 30, 
2006, as well. He also was severely beaten by Chinese police on 
June 1, and he was later hospitalized in June following police 
beating and has repeatedly been tortured and subject to severe 
medical neglect during his detention and subsequent 
imprisonment. He was also severely beaten, especially in his 
heart part, so he suffers heart problems today as a result of 
torture in Chinese prison.
    Ablikim was sentenced to 9 years in prison on charges of 
secessionism in April 2007. On May 31 this year, the Chinese 
authorities allowed some of my children to separately visit 
Alim and Ablikim. Ablikim, who has heart problems as I 
indicated, didn't say much during the visit. He did point to 
his heart, trying to show that his heart problem is getting 
worse. He looked extremely pale and very skinny. Alim, the 
other son, say that he had to do heavy prison labor and 
suffered tremendously as a result of poor quality of prison 
food.
    He, too, looked quite skinny. Prison authorities only 
allowed family members to give Alim 100 Chinese Yen, which is 
equivalent to US$15<greek-l> U.S. dollars deg., monthly to pay 
for his food. Alim also state that he suffers severe stomach 
problems for which the authorities did not provide any kind of 
medical care. The Uighur people had hoped that the Chinese 
Government would honor its pre-Olympic promises to the 
international community for a greater respect for human rights.
    Instead, Uighurs have seen an intensification of the long-
term persecution it has suffered at the hands of the PRC 
authorities. This is a critical time for the Uighur people, so, 
in conclusion, I will offer in the context of the long-standing 
support shown by the United States to the Uighur people five 
recommendations to policy makers on addressing the systemic and 
egregious human rights abuses that prevail in east Turkistan.
    I ask that the committee encourage the establishment of 
independent body to investigate China's systematic human rights 
violations of the Uighur people and evaluate the consequences 
of China's six decade long repressive policies in east 
Turkistan. Second, I ask that the committee work with the U.S. 
State Department to establish a consulate in Urumqi, the 
regional capital, to monitor and document the deteriorating 
human rights situation in the region.
    Third, I would like to ask that the U.S. Embassy in Beijing 
send officials to visit my children in prison and find out 
their situation there. Fourth, to enhance dialogue between Han 
Chinese, the Uighurs and Tibetans. I ask that radio free Asia 
and voice of America add to their Mandarin services a half-hour 
program each week on issues related to east Turkistan and 
Tibet. In this way, Mandarin speakers are able to access 
information from a different perspective on these two regions.
    Lastly, I ask that the committee work with the State 
Department again to establish a special envoy on Uighur affairs 
to oversee at a senior level the evaluation of Chinese 
Government's performance on improving human rights conditions 
in east Turkistan and a launch of the dialogue on a solution to 
the legitimate grievances and aspirations of the Uighur people. 
Thank you very much.
    [The prepared statement of Mrs. Kadeer 
follows:]<greek-l>Rebiya Kadeer deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Delahunt. Thank you so much, Ms. Kadeer. Next, we will 
start with Ms. Abramson, and then we will go to Ms. Gaer and we 
will end up with Nury Turkel.

   STATEMENT OF MS. KARA MIRIAM ABRAMSON, ADVOCACY DIRECTOR, 
          CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

    Ms. Abramson. Thank you. In my remarks, I will provide a 
brief introduction to the history of the Uighurs and to the 
area today known as the Xinjiang Uighur Autonomous Region. The 
Xinjiang Uighur Autonomous Region is located within the 
northwest borders of the People's Republic of China. It 
occupies one-sixth of China's total territory, is a resource 
rich area and borders eight countries. Its population today is 
roughly 21 million, according to official Chinese statistics.
    The Uighurs are the main indigenous ethnic group in the 
region. They are a Turkic ethnic group that share cultural ties 
with Uzbeks, Kazakhs and other central Asian populations, as 
well as with the Turks of Turkey. The Uighurs are Sunni Muslim 
and speak a language related to Turkish. As these facts 
suggest, the Uighurs have a distinct culture and history that 
is different from the Chinese. The Uighurs' home, what is today 
designated as the Xinjiang Uighur Autonomous Region by the 
Chinese Government, is often noted as a crossroads of Asia and 
a hub on the Old Silk Road. This location helps explain the 
region's complex history.
    The Government of the People's Republic of China, however, 
politicizes and simplifies the region's history to justify its 
current control over the area. The Chinese Government today 
says that the region has been an inseparable part of China for 
millennia. The reality is far different. Ruling powers in China 
before the PRC had varying degrees of interaction with, and in 
some periods a degree of control, over the region.
    For much of their history, Uighurs experienced their own 
patterns of political rule apart from China. The Qing dynasty 
rulers of China conquered the region in the mid-18th century 
and later designated it as Xinjiang Province in 1884, but 
control by the Qing and its successors was often tenuous well 
into the 20th century. In the 1930s and 1940s, local ethnic 
groups declared two independent republics in the region. 
Communist forces took control of Xinjiang in 1949, and in 1955, 
the PRC Government designated the region as the Xinjiang Uighur 
Autonomous Region.
    This designation means Xinjiang is like a Chinese province, 
but in addition is entitled to special legislative powers to 
allow in theory for more autonomy in governance and special 
protections for ethnic minority populations. In reality, there 
are strong limits to this autonomy system to the extent that we 
see something that looks like the exact opposite of autonomy in 
Xinjiang.
    Since the PRC took control of Xinjiang it has left a strong 
imprint in the region. As a result of state migration policies, 
Han Chinese, the main ethnic group in China, now constitute at 
least 40 percent of the region's population, up from around 6 
percent in the 1950s. Uighurs, who were 75 percent of the 
population in the 1950s, are now around 45 percent based on 
official Chinese statistics.
    In addition to engineering demographic shifts, we have seen 
other longstanding policies to promote assimilation, to remake 
aspects of Uighur ethnic and religious identity to conform with 
state goals, and to punish peaceful forms of dissent and other 
forms of expression. After the Cultural Revolution there was 
some leeway to develop and express Uighur identity in the 1980s 
but repression in the region has worsened since the 1990s and 
the PRC gained momentum to further tighten controls after 9/11.
    To end, let me discuss a few of the reasons why we see this 
level of repression. First, it is important to remember that 
this is a region that is historically and culturally quite 
distinct from China, as the Uighurs themselves are distinct 
from the Han Chinese. That the region is today a part of China 
reflects, among other factors, the strength of the Chinese 
Communists in 1949 rather than the democratic will of the 
Uighur people.
    Given these circumstances, the Chinese Government sees the 
region and certain assertions of ethnic and religious identity 
as a potential source for separatist movements that could 
challenge Chinese control or lead to instability. As China 
watched central Asian republics emerge in the 1990s, these 
fears became particularly acute. In addition, as I noted, 
Xinjiang is a resource rich area. For this, and many other 
reasons, China wants to hold on to it.
    As for the nature of this separatist movement, Xinjiang 
specialists who have looked at available information have 
questioned the presence of a real and vigorous separatist 
movement inside China, but the Chinese Government nonetheless 
perceives a threat. Of course, with the Chinese Government's 
track record of manipulating data on terrorist attacks, 
conflating peaceful expressions and religious activity with 
separatist acts and imposing barriers to freedom of press, it 
can be quite difficult to get an accurate picture of the 
separatist threat claimed by the Chinese Government. What is 
clear, however, is the nature and scope of Chinese Government 
repression in the region. Thank you.
    [The prepared statement of Ms. Abramson 
follows:]<greek-l>Kara Abramson deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Delahunt. Thank you very much. Next, we will go to Ms. 
Gaer.

  STATEMENT OF MS. FELICE D. GAER, CHAIR, U.S. COMMISSION ON 
                INTERNATIONAL RELIGIOUS FREEDOM

    Ms. Gaer. Thank you very much, Chairman Delahunt, and thank 
you to the other members for being here and holding this 
hearing. It is certainly a timely hearing. Last week we 
commemorated the brutal crackdown in Tiananmen Square. 
Tiananmen has been a vivid symbol of the Chinese Communist 
Party's abuse of its own citizens' right to speak out, to 
assemble and make demands on their government. We have rightly 
commemorated the many students and activists who protested for 
freedom and paid a steep price.
    We also have the timeliness of this morning's newspapers 
about the Uighur Muslim detainees being likely to be released 
and possibly sent abroad. Today we are here to examine another 
kind of abuse which is China's egregious repression of the 
Uighur Muslim in the Xinjiang Uighur Autonomous Region. The 
U.S. Commission on International Religious Freedom is a Federal 
bipartisan commission, and we have studied and written about 
China for some time.
    The Commission has existed for 10 years and we have been 
writing about China for 10 years. In 2005 we traveled there. We 
also went to the Uighur region. We visited Urumqi and we 
visited Kashgar. We have just issued our annual report a month 
ago and have an extensive chapter dealing with the entire 
situation in China, which I commend to you. Here, I will just 
summarize the fact that religious freedom abuses are widespread 
in China. Every religious group experiences some type of 
harassment, restriction or control.
    We believe we should pay close attention to the human 
rights situation in Xinjiang Province, a region with an 
estimated 8 million Uighurs, the vast majority of whom are 
Muslim. We think we should do so because of enduring 
restrictions on the Uighur religion and culture, and growing 
ethnic tensions between the indigenous Uighur population and 
newly arrived Han Chinese migrants, as well as the repression 
that we have described.
    Xinjiang is sometimes called China's other Tibet. Chinese 
Government authorities themselves commonly equate the peaceful 
religious practices of Uighur Muslims with religious extremism, 
and with separatism, and they use the global war on terror as 
an alleged reason to crack down on a wide variety of peaceful 
forms of religious activity and expression. Since 9/11, China 
has beefed up military and police units in the region, it has 
detained thousands of so-called suspected ``separatists'' and 
it has severely restricted religious freedoms which are 
protected under international law, and frankly, under China's 
own constitution.
    There have been bombings, there have been other incidents 
in Xinjiang Province over the past two decades, but the vast 
majority of Uighurs seeking to enjoy their religious, civil, 
cultural and economic rights do so peacefully. China's wide 
ranging repression of the region's historic Uighur Muslim 
religion, language and culture has been widely criticized, in 
fact, as being counterproductive.
    The Commission has recommended that the United States 
should press China to provide transparent information on 
terrorist activity in Xinjiang, to open trials of these so-
called religious extremists and to allow international 
observers and lawyers access to current prisoners. Chinese 
restrictions on peaceful religious activity and expression in 
Xinjiang are particularly egregious and they are, in fact, 
draconian in scope.
    The government continues to limit access to mosques, 
including the participation of women, of persons under the age 
of 18, of government officials, and of course, of Communist 
Party members themselves. Teachers, professors, university 
students and other government employees are simply prohibited 
from engaging in any religious activities, such as reciting 
daily prayers or distributing literature that is religious. 
Imams in Xinjiang are required to attend annual political 
training seminars to retain their licenses, and local security 
forces monitor imams and other religious leaders.
    There continue to be an unknown number of Uighurs 
imprisoned for reasons related to peaceful religious activity 
or religious freedom advocacy. The Commission on International 
Religious Freedom, as well as the U.S. Department of State and 
Chinese sources themselves, have reported 1,300 arrests and 
detentions in the last year, a sharp increase from about 740 
last year. Those are their numbers. The details of these cases 
are simply not known.
    In the year leading up to the Beijing Olympics, government 
officials in Xinjiang expanded measures to strengthen control 
over Uighur religious activity. Some of the new measures 
undertaken include campaigns to ``weaken religious 
consciousness.'' That is a quote of the phrase used by the 
Chinese leaders.
    So campaigns to weaken religious consciousness among women 
and among young people, rules to expel religious leaders for 
missing required political indoctrination courses, requirements 
to monitor students in schools particularly, and also to 
monitor them during their school vacations, and also campaigns 
to confiscate so-called illegal religious publications and to 
close so-called illegal religious centers. Now, the 
Congressional Executive Commission on China, the Uighur 
American Foundation and our Commission have many more examples 
of such restrictions and abuses targeting the Uighurs.
    I have limited time so I wanted to concentrate the 
remaining time on a few recommendations. First of all, 
prisoners. The Commission believes it is important for Members 
of Congress to repeatedly raise individual prisoner cases with 
Chinese officials and to seek to meet imprisoned Uighurs during 
official visits to China. We also wish you luck on getting to 
visit the prisoners in Guantanamo. It is important to have such 
visits because they raise the profile of these prisoners.
    In terms of the visits in China, they would demonstrate the 
fact that the United States advocates for religious freedom of 
Muslims just as much as it does for Christians, Jews, Bahai's 
and Buddhists. Since we do, why not show it? Ms. Kadeer's 
children, including Ablikim Abdureyim, need those visits. That 
information about the visit in May is extraordinarily important 
and moving and it should create a sense of urgency. If we can 
get the consulate to go out there, great. If we can't, maybe it 
is time for the Congress to try again.
    Secondly, we believe that the United States-China human 
rights dialogue, which has been reestablished, should be 
strengthened. The recently renewed dialogue will include a 
working group on human rights, we are told. Will it be focused 
on achieving measurable and concrete results or will it only be 
a talk shop? The Commission thinks the Congress can play an 
important role in suggesting to other parts of the government 
that this dialogue can be successful.
    The way you can do that is to ask the State Department to 
submit a report to the appropriate congressional committees 
detailing the extent to which China has made progress on a 
series of benchmarks and issues specified by the Congress. 
Congress has done this in the case of Vietnam. No reason you 
couldn't do the same thing with regard to China.
    Third recommendation. Raising Chinese human rights issues 
at the United Nations. The U.S. has recently rejoined the Human 
Rights Council, been elected as a member. It is present, and a 
presence, at the General Assembly and other bodies as well.
    The commission believes the United States should raise 
publicly concerns about human rights abuses against the Uighurs 
in appropriate multilateral and international fora, including 
the General Assembly and the Human Rights Council, and that it 
is important to ensure that preparations for such action are 
made at appropriately high levels. Working year round with 
these bodies, the United States can help produce the type of 
multinational attention that can command attention in China and 
improve compliance with human rights standards by its 
government.
    Fourth, the Commission urges the Obama administration to 
take targeted action under the International Religious Freedom 
Act of 1998. The Congress created this act. Our Commission 
exists because of it. Under it, the United States Government 
identifies the systematic and egregious violators of freedom of 
religion on an annual basis. If a country is so designated, as 
China has been for many years now, that country also will be 
identified with certain ``Presidential actions.'' 
Unfortunately, previous administrations have used preexisting 
sanctions only, sanctions that were first put in place after 
Tiananmen.
    There have been no unique sanctions with regard to China 
that deal with religious freedom. Such a practice provides 
little incentive for China to address the religious freedom 
violations, including those that are in Xinjiang Province. The 
Commission recommends a break with the past on these practices, 
that there should be new Presidential actions or sanctions that 
would focus either on state agencies or officials in the area 
where the problems are, those who are responsible for egregious 
religious freedom conditions.
    Xinjiang and its officials could be the target of such 
sanctions as one of the worst offenders of religious freedom in 
China. We hope that Members of Congress can help the Commission 
make the strongest case for such action directly with the White 
House and the Department of State. Finally, we echo the 
recommendation made by Ms. Kadeer about opening a consulate in 
Urumqi. It would be a dramatic addition.
    Finally, we believe that there should be a transparent 
mechanism created in China for reviewing cases of persons 
detained under suspicion of offenses related to state security 
or participating in so-called illegal gatherings or religious 
activities. They have been barely afforded any due process. 
There is a need to look again there. We hope you can help with 
that as well. Thank you very much.
    [The prepared statement of Ms. Gaer 
follows:]<greek-l>Felice Gaer deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Delahunt. Thank you so much, Ms. Gaer. Last, but 
certainly not least, Mr. Turkel. Nury, would you please 
proceed.

   STATEMENT OF MR. NURY TURKEL, UIGHUR RIGHTS ACTIVIST AND 
                            ATTORNEY

    Mr. Turkel. Thank you. Chairman Delahunt, Ranking Member 
Rohrabacher and members of the subcommittee, I want to thank 
you for holding this hearing. I am extremely grateful for your 
interest and leadership in examining the critical issues 
affecting the future of the Uighur people, including the 
problem of economic, social, cultural discrimination, denial of 
religious freedom, the impact of so-called war on terror in 
Chinese version, and China's misuse of its global influence, 
and finally, the fate of the 17 Uighur prisoners in Guantanamo.
    The Uighur people greatly appreciate any efforts that could 
help promoting and protecting their freedoms, including the 
rights to be Muslim. Like Tibetans, Uighurs have endured 
decades of discrimination, brutal oppression under Communist 
Chinese rule. According to various human rights organizations, 
Uighurs are almost without exception the only ethnic group in 
China to be regularly executed for nonviolent political 
offenses.
    Since 9/11 in particular, Beijing has taken advantage of 
antiterrorism sentiment using the United States-led war on 
terror as an excuse to oppress Uighurs with impunity, including 
many who have peacefully protested their treatment. Ironically, 
China regularly portrays Uighur historians, poets, writers, as 
intellectual terrorists and jailed them for expressing their 
ideas in the written and spoken word. Today, Uighurs face not 
just daily humiliation and discrimination but harsh 
persecution, and even threat of cultural and religious 
extinction.
    A few years ago Chinese Communist Party Chief Wang Lequan 
said ``Xinjiang will always keep up the intensity of its 
crackdown on ethnic separatist forces and deal them devastating 
blows without showing any mercy.'' As promised, over the past 
several years Chinese leaders brutally punish Uighurs who even 
peacefully express dissent and who actively oppose China's 
ongoing onslaught against Uighurs' ethno-national identity.
    These aggressive policies are mostly targeted against 
Uighurs' religious and cultural identity. Now I would like to 
discuss challenges the Uighurs face under Chinese Communist 
rule in greater detail. China's cultural repression of the 
Uighurs is not reactive. It is a deliberate policy to control, 
monitor and sterilize Uighur culture so it cannot be a vehicle 
for self-rule and even challenge to the Communist state.
    A key component of this effort is to eliminate literary, 
academic and professional use of the Uighur language. Since 
2002, the bilingual education policy has mandated the use of 
Mandarin Chinese as a primary language of instruction for 
Uighur students throughout the education system. This is a 
precision attack, a cruise missile, if you will, against Uighur 
culture in attempt to dumb it down and subvert it Mandarin 
Chinese.
    I think Communist China's top man in the Uighur region, 
Wang Lequan, made Chinese intentions very clear when he said 
the adoption of the Chinese will improve the quality of ethnic 
minorities because indigenous language are out of the step with 
the 21st century. Mr. Chairman, Uighurs were the stewards of 
the central Asian Silk Roads and the Uighur cultural background 
makes them well-suited to promote trade and keep up with the 
pace of the globalization. The beauty of the Uighur culture 
does not need Wang Lequan or other Communist leaders' 
improvements.
    China's plan for Uighurs continue. Just last week China 
Daily quoted a chairman of Xinjiang regional government, Nur 
Bekri, as saying that ``terrorists from neighboring countries 
mainly target Uighurs that are relatively isolated from 
mainstream society as they cannot speak Mandarin that are then 
tricked into terrorist activities.'' Mr. Chairman, these 
troubling comments imply that those Uighurs who can speak only 
their native language are inherently terrorist suspects, and 
therefore, government must force the Chinese language upon 
them.
    In other words, the parlance of Chinese Communists double 
speak. Mr. Bekri is attempting to justify a language planning 
policy aimed at eliminating the Uighur language in the 
education system on security grounds. Clearly, this is another 
attempt to label peaceful Uighurs as terror suspects and 
indicates intensification in the Chinese authority's campaign 
against the Uighur language. Chinese Government does not stop 
at the Uighur language. It also openly attacked Uighur culture 
and history.
    The current Communist leadership in Beijing, taking 
Chairman Mao's advice to use the past to serve the President, 
has engaged in open and concerted efforts to revise Uighur 
nation's history to fit their world view that Uighur homeland 
has been part of China since ancient times. As a result, 
cultural promotion and research are plainly frowned upon by the 
Communist authorities, with historians, cultural leaders, 
researchers and activists detained and subjected to long 
prisons.
    Even writers of fiction have been accused and punished for 
advocating so-called splittist thinking. For instance, in 2005, 
a young intellectual, Nurmemet Yasin, was sentenced to a decade 
in prison for writing allegorical short story comparing the 
plight of the Uighur people to that of a caged pigeon. The 
assault on Uighur identity has recently escalated to include 
the demolition of traditional Uighur buildings in Kashgar. 
Uighur home, ancient bazaars and mosques will be destroyed.
    Mr. Chairman, I was born in Kashgar. I was born and raised 
in Kashgar. It is a serious blow to know that 1,000 years of 
Uighur culture and history integrated through the physical 
space and architecture of an old city will be destroyed as a 
result of China's political motivated policies. It will be 
immeasurable loss for the Uighur people. It will also be a loss 
for the citizens of the world as the atrophy of the global 
cultural heritage sites continues. Before the plans complete, I 
urge you to attempt to visit Kashgar, if Chinese will let you, 
to see my home one last time before they destroy it completely.
    I would like to now talk about how the Chinese Government 
has systematically used Uighurs' religious identity to further 
their policies. The Chinese constitution, law and propaganda 
all insist that ethnic minorities enjoy religious freedom, but 
the Uighurs are given significantly less breathing space than 
other Muslim minorities. Reason for this is that China sees 
Uighurs' ethno-national identity as disloyal to the Communist 
state, and Islam is perceived as feeding this Uighur ethnic 
identity.
    Apparently, even in the United States or in the west the 
Uighur religious identity also made them an easy target for 
slander and falsehood. Recently, a few pundits have claimed 
that the Uighurs' ultimate goal is to establish Sharia Law-
based state. This is patently false and strangely echoes 
Chinese propaganda. It is deeply perplexing and equally 
worrying that some Western media have helped to further this 
perception with reports that include no examination of Chinese 
propaganda claims that the Uighurs are not religious extremists 
or radicals.
    In fact, in the early part of the last century, the 
Uighurs' homeland of east Turkistan was the first secular and 
democratic republic to be established in the Muslim world 
outside of Turkey. The Uighur case is proudly secular and 
democratic with guarantees of religious freedom and for 
peaceful enjoyment of this and other fundamental human rights.
    Mr. Chairman, the Uighurs' domestic and international 
travel has been restricted as well, specifically in two forms: 
Racial profiling and confiscation of passports. Chinese 
Government propaganda campaigns against the Uighur people have 
made them subject to racial profiling in Chinese cities. 
Uighurs have been easily identified and targeted because of 
their appearance and ethnic origin. Basic services, such as 
lodging, transportation, even public bath houses, are not 
available for Uighurs in Chinese cities.
    For example, in 2008 hotels and bath houses in Beijing's 
Haidian District were ordered not to allow the Uighurs and 
Tibetans to use their facilities. Also, large numbers of 
passports belonging to the Uighurs have been confiscated since 
early 2007, and that is making it impossible for Uighurs to 
travel abroad for business or educational purposes, or to visit 
family members abroad as part of family reunification, or for 
family and community events, such as wedding, funerals, or to 
go to religious pilgrimage, including hadj.
    All citizens of China, there is a fundamental difference, 
with the exception of Tibetans and the Uighurs can generally 
obtain passports through a fairly simple process. In the 
foreign countries, specifically for the Uighurs who managed to 
flee Communist China by crossing into neighboring central Asian 
and south Asian countries, for example, are extremely 
vulnerable for being deported back to China under bilateral 
agreement that completely ignore and undermine international 
refugee laws which are often a result of China's growing 
untoward influence upon its country's political and security 
structures.
    Just recently Pakistan had deported several Uighurs for 
suspect of being involved in a Uighur political movement. In 
conclusion, let me say this, Mr. Chairman. Discrimination and 
restriction of movement, denial of services at hotels and other 
establishments, makes Uighurs feel second class citizens within 
China. Communist China is using policy which, in my view, are 
being used to not marginalize, if not wipe out, the Uighur 
identity.
    Uighur culture have adopted and thrived for centuries, and 
the Uighurs do not seek isolation. The Uighurs must be allowed 
to worship, speak, write and think without fear of reprisal. 
The Uighur people admire American foundational, American ideals 
of life, liberty and pursuit of happiness. Many Uighurs, we 
view the United States as a beacon of hope that will assist 
them in their quest for the same fundamental freedom and basic 
human dignity.
    The Uighur people are fully in agreement with American 
beliefs that to end the tyranny in the world and the consequent 
spread of true democracy and respect for human rights are best 
defense against radical extremism of any kind. Mr. Chairman, 
America needs to be Uighurs main source of hope. To accomplish 
that, to do that, President Obama should publicly express 
serious concerns over the deteriorating human rights situation 
in east Turkistan.
    Also, a senior State Department official, preferably the 
new ambassador, should visit the Uighur region idly to meet 
with a dissident and family members of political prisoners. 
Finally, United States should allow 17 Uighurs currently 
languishing in Guantanamo in the United States. The Uighurs are 
the human face of the mistakes made in Guantanamo. There is no 
better way to fix those mistakes other than bringing the 
Uighurs into the United States and let them restart their lives 
and be proud of this proud Uighur-American community here, in 
this country. Thank you.
    [The prepared statement of Mr. Turkel 
follows:]<greek-l>Nury Turkel deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Delahunt. Thank you, Nury. I am going to ask the vice 
chair to take the chair for a moment as I have some calls to 
make, but let me call on the ranking member for his questions. 
Mr. Rohrabacher.
    Mr. Rohrabacher [presiding]. Thank you very much, Mr. 
Chairman. There have been many false statements made about the 
Uighurs in the last 6 months to a year, and I think the best 
and most effective way to combat falsehood is not to ignore a 
charge, but instead, to explore it and talk about it, and so I 
am going to be pursuing information from you and ask you 
questions based on charges that I certainly do not agree with 
but I think they need to be answered in the public so the 
public will be able to have that information available to them.
    Perhaps the most sinister of the charges about the 17 
Uighurs being held at Guantanamo is that these are people who 
believe in Sharia Law and that they are radical Islamists who 
are tied to al-Qaeda; after all, that is why they were in 
Afghanistan, and that thus, on the face of it, that they would 
pose a threat to the United States. That is perhaps a 
capsulization of the charge that was made or the statements 
that were made to justify the continued incarceration of the 
Uighurs in Guantanamo. So let me ask that.
    Mr. Turkel, you mentioned specifically that Uighurs do not 
believe in Sharia Law. First of all, in general, is that 
accepted by the panel, that the Uighurs as a whole are not 
people who are aiming to try to create a society based on 
Sharia Law? We will ask specifically also about those 
particular 17 Uighurs in Guantanamo. We will start with Mr. 
Turkel and go down.
    Mr. Turkel. In order to answer that question, Mr. 
Rohrabacher, we have to look at the political history of the 
Uighurs, and philosophy of the Uighurs and culture of the 
Uighurs. Historically, Uighurs had twice established a secular 
republic. First time in 1933, second time in 1944. Both of 
those republics were established or led by very religious 
leaders. The president of the first republic was the person who 
translated Koran into Uighur, and yet, he embraced the 
republican system of government rather than establishing a 
Sharia Law-based society or country. He thought all the Turks, 
Turkey is a good example to follow.
    Mr. Rohrabacher. Okay. Is that what people today, the 
leadership and various people in that area, believe today as 
well?
    Mr. Turkel. I believe that tradition continues because the 
vast majority of the Uighurs believe the best way to run a 
healthy society or healthy government is to separate religion 
from the politics.
    Mr. Rohrabacher. Okay.
    Mr. Turkel. They believe in the secular nature of the 
society. Also, in the second republic in 1944, the President, 
Elihan Tore, himself is a very religious person, and yet, he 
formed secular, diverse government which included even Han 
Chinese.
    Mr. Rohrabacher. Okay. Yes. What is your reaction to these 
charges?
    Ms. Gaer. Thank you. Well, first of all, I can't say that 
we have any information about the 17 specifically and any views 
that they have. I suppose when they get to be released, whether 
it is in Palau or elsewhere, we will have an opportunity to ask 
those questions. As far as Uighur Muslims, and the Uighur 
culture and religious expression, we have a population here 
that is trying to express Islam as they know it in a situation 
which is very hostile to it.
    When you go into mosques and see signs that say who can and 
who can't be there displayed visibly, when you see schools 
being retreaded by Communist officials who have little sympathy 
for religion at all, you understand that they are struggling 
for certain basic rights as, really, just people. There was no 
discussion whatsoever of Sharia Law as a desire among any of 
the imams, religious officials or others that we met with in 
Kashgar or in that region.
    Mr. Rohrabacher. Okay. All right. That is a good. Ms. 
Kadeer?
    Mrs. Kadeer. The Chinese Government has been aggressively 
portraying and demonizing as Uighurs displeasure with the 
Chinese Government rule as terrorism and also Islamic 
radicalism, but in my more than 60 years of life, the only time 
I realized about the existence of such terrorism is because of 
the 9/11 and the things happen on that tragic day. Later, we 
learned some of the Uighurs went to Afghanistan. Then we learn 
about the so-called organization called the East Turkistan 
Islamic Movement. Recently, we also saw some of the video 
footage put out by another organization purporting to represent 
the Uighurs.
    What is shocking to us is we are not aware of who these 
people are, and also, they appear on YouTube at the critical 
juncture, especially when there is a serious discussion about 
potentially releasing the Uighurs at Guantanamo or when we, the 
World Uighur Congress, have something major, important events, 
they appear on YouTube. These people appear on YouTube and they 
all slander all our supporters in the west and all the people 
that support the Uighur people's peaceful struggle.
    So Uighur people are very delighted to have the support of 
the western democracies. Also, throughout my life I haven't 
seen like Uighurs like that who appear on YouTube making that 
kind of outrageous claims or statements. So we have questions 
about the backgrounds of those people and as to why they are 
making those statements.
    Mr. Rohrabacher. Okay. Let me just be very specific about 
this. So it is your testimony to us today that the Uighur 
peoples are not struggling in order to create a society based 
on Sharia Law but more on a society based on freedom for the 
people to worship God as they see fit.
    Mrs. Kadeer. That is the wish of all the Uighur people, not 
to have this Sharia Law-based Islamic state, but rather freedom 
of religion for all and a democratic state. That is why the 
Uighur people chose a woman like me to be their leader.
    Mr. Rohrabacher. Right. Have you ever been asked, have 
people insisted that you cover your body in the way that they 
insist in Sharia Law countries?
    Mrs. Kadeer. No, nobody asked me and they don't even ask me 
to wear that. There is no coercion among the Uighur people. The 
Uighur people are very freedom loving, they are very jolly, 
happy people. They love music, they love singing, and we are 
hearing this kind of negative propaganda only because of the 
Chinese Government's role in demonizing the Uighur people. Then 
we see in some of the western media portraying us as this 
fundamental extremist people.
    Mr. Rohrabacher. Unfortunately, there have been some anti-
Communists who have been parodying this charge without looking 
into it and it is very important that we are on the record 
about this today, this specific issue. Ms. Abramson, what about 
you? Have you discovered in your studies an intonation toward 
establishing a Sharia Law-based state in that part of the 
world?
    Ms. Abramson. So what I have seen in looking at Uighur 
history and Uighur religious practices, Uighurs have practiced 
a form of Islam that has been influenced by Sufi practices. It 
contains a lot of features that, say, al-Qaeda would rally 
against. So this is the type of religion, type of religious 
practice that is very different from the charges, the type that 
you described. I do think that the charges that you described 
have gained some currency because the Chinese Government has 
been so vigorous in painting the Uighurs as ``extremists'' and 
people who engage in ``illegal religious activity.''
    So I think it is useful for just a second to take a look at 
what that means. Basically, that can mean anything outside of 
the tightly controlled, narrow space for Chinese Government 
state approved religious activity, including, say, holding an 
unauthorized religious class for children. So this is what gets 
painted as ``illegal religious activity'' or can be described 
as ``extremism.''
    So that people can get a better sense of what this means, I 
would just like to refer listeners, everyone here in the room, 
to the Congressional-Executive Commission on China's political 
prisoner database which contains cases of Uighurs imprisoned 
for exercising their fundamental right to freedom of religion.
    Mr. Rohrabacher. The charges that are being brought up and 
trying to create a false impression are basically that what we 
have here is just the making of another radical Islamic state, 
and so I find what the panel is saying, that that charge is 
just, and correct me if I am wrong, totally wrong, and false 
and probably the product of Communist Chinese propaganda.
    Ms. Abramson. We certainly haven't seen evidence of it.
    Mr. Rohrabacher. All right. With that, I will ask some more 
questions later on but I will yield back to my chairman.
    Mr. Delahunt [presiding]. We are joined by the gentleman 
from Texas, Mr. Poe. Mr. Poe, we will give you your opportunity 
now to inquire of the panel.
    Mr. Poe. Thank you, Mr. Chairman. It seems to me that our 
foreign policy treats different folks different ways. You know, 
the Chinese Government is our economic buddies, so because they 
are our buddies, we don't criticize them as much as we will, 
you know, the North Koreans, or the Iranians, for God's sake. 
Because they control our debt, and who would have thought they 
are now going to be making Hummers, we treat them different as 
a nation. So personally I am somewhat skeptical about what the 
government says about what is taking place in China, our 
Government, and I don't trust anything the Chinese Government 
says about the way they treat their own people.
    So my concern is we have got to cut through the chase and 
figure out exactly what is taking place. The Uighurs that are 
in Guantanamo Bay prison, it bothers me that since that is 
supposedly our prison we let any foreign country come in there 
and talk to what now they claim are their nationals, whether it 
is China or any other nation. So the President has announced 
Guantanamo Bay prison is going to close. What do we do with the 
Uighurs? Who wants to tell me what to do with them?
    Mr. Delahunt. Would the gentleman yield for a moment?
    Mr. Poe. Certainly.
    Mr. Delahunt. I don't know if you are aware but there was 
an announcement very early this morning that the nation of 
Palau, and I know you visited there----
    Mr. Poe. That near Texas?
    Mr. Delahunt. It is west of Texas. Let me just leave it 
like that. Has agreed to take the 17 Uighurs that are detained 
there. I have had an opportunity to discuss with my ranking 
member where do we go from here? I think you know both of us, 
and I think you know that we have very divergent views, but at 
the same time, I believe it is important to proceed to 
investigate how those who are currently there, and those that 
were there previously, arrived there, how they were screened 
and what information did the United States rely on in terms of 
detaining them?
    I have acknowledged that the Bush administration did clear 
them, declared them to be noncombatants and not a threat to the 
United States, and that was obviously a decision that was 
rendered recently by a Federal District Court, but I think that 
I am accurate when I say that the ranking member and myself are 
concerned that our Government has relied on intelligence coming 
from the Chinese to make decisions. Some of our colleagues have 
expressed grave concerns about releasing the Uighurs into the 
United States. Well, that is not going to happen.
    I hope that their statements are not based upon information 
coming from the Chinese intelligence services. I am concerned 
that some of us have been duped by the Chinese Communists. I 
think it is very important that we take the case of the Uighurs 
and now that it is moot in terms of what we are going to do 
with them that we find out what happened. I don't know if you 
are aware, Ted, but both myself and Mr. Rohrabacher did request 
to go to Guantanamo and interview the Uighurs detainees.
    We had secured the consent of their attorneys. Their 
attorneys felt very comfortable in having their clients release 
them so that Mr. Rohrabacher, and myself and our staffs could 
go and interview them. We were denied, but we have discovered 
that in I think it was the year 2003 that Chinese Communist 
intelligence agents were allowed access to the Uighur 
detainees.
    There is also some evidence that indicated that not only 
were they interrogated, but they were threatened. That simply 
cannot stand. If that is accurate, we should take lessons as we 
move forward on the issue of Guantanamo. I yield back. I thank 
the gentleman for giving me some of his time.
    Mr. Poe. Thank you, Mr. Chairman. As you said, and you may 
recall that in one of our Foreign Affairs Committees I 
volunteered to accompany you to Guantanamo Bay prison to visit 
them as well, and it is unfortunate that our own Government 
denies Members of Congress access to those prisoners when they 
will let foreign governments come in and interview those 
prisoners.
    Mr. Delahunt. The gentleman will further yield?
    Mr. Poe. Yes.
    Mr. Delahunt. I am willing to go to Palau and have a 
conversation with the Uighurs somewhere in the South Pacific. 
If the gentleman wants to accompany myself and Mr. Rohrabacher, 
I think that we can get the truth out because I have had a 
conversation with their attorneys and the version that is being 
echoed here in the United States right in the halls of Congress 
I suspect is absolutely false and is reflective of intelligence 
that had been provided to the United States Government by the 
Chinese, by the Communist Chinese, not by independent sources. 
I yield back.
    Mr. Poe. Reclaiming my time. That is really my biggest 
concern is that we are basing American foreign policy decisions 
upon what the Chinese Government tells us. That should be 
highly suspect, but because they are our trading partners, you 
know, we will accept their word when other people who don't 
have an economic tie to the United States, we reject what they 
say.
    The only way we are going to get to the truth about all of 
this is I think Congress has an obligation to find out exactly 
what is taking place. China's history of human rights is a 
problem when their now young people deny that even Tiananmen 
Square took place 20 years ago because their own country is 
telling them that never happened. I think human rights, if we 
are for human rights, we ought to be concerned about human 
rights, even with our economic buddies. So I will yield back 
the remainder of my time, Mr. Chairman. Thank you.
    Mr. Delahunt. I thank the gentleman. There has been a 
reference to a purported act by one of the Guantanamo detainees 
that that individual smashed a TV set because the presentation 
on the television involved a woman with bare arms. Now, I give 
you that because that appears to be some evidence that is being 
offered by some here in Washington that the Uighurs represent 
an extreme version of Islam. I put the question to the panel. 
Let me start with Mr. Turkel. Is that something that the 
version of Islam that is practiced by the Uighur community 
would find so repugnant that an individual would throw a TV set 
against the wall?
    Mr. Turkel. Congressman, I appreciate that question. First 
of all, that incident is not what it is being described in L.A. 
Times. That is an almost 3 years old incident. It has nothing 
to do with, as far as I know, a woman bare arm. I wasn't at 
Guantanamo when that story broke out 3 years ago. The thing 
about the Uighur person not being tolerant for a woman in the 
modern attire is absurd at best. The Uighurs are very secular, 
open and modern people.
    The Uighur woman plays a dominant role in the Uighur 
society, and family, and business. Even politics. We have a 
Uighur female leader sitting with us in here. So that story 
does not have any factual backing, as far as I know, for a 
couple of reasons. One, the Uighurs don't have such a culture 
of not being tolerant to a woman who is in modern attire. The 
second is the TV is still there. It is not a real TV, it is a 
combo.
    If it is still the same TV, I have seen that TV. It is a 
combo. It does not hook up with cable. They play some Animal 
Planet or some Harry Potter movies. It is not a regular TV that 
you watch and flip channels. That does not reflect the true 
nature of the Uighur people.
    Mr. Delahunt. You mentioned, Nury, and I am just want to 
have repeat because Mr. Rohrabacher elicited the answer but I 
think it is worth repeating because there is so much 
misinformation that exists because it gets repeated again, and 
again, and again and it gets amplified. It is the technique, if 
you will, of the big lie. I will start with you and ask 
everyone else again the question, and you mention it in your 
statement, that the Uighur people do not seek to create a state 
based on Sharia Law. Is that accurate, and is that your 
opinion? Let me proceed down the line.
    Mr. Turkel. That is not an accurate description of the 
Uighurs' ultimate goal. It is not only false, but it is 
invented just because the Uighurs happen to be Muslim and they 
should carry the hat of others who wanted to fighting for that 
goal. Uighurs wanted to be treated like a human being. Uighurs' 
struggle is one for national existence and national survival. 
It has nothing to do with setting up or establishing a Sharia 
Law-based society. There is no historic probe, there is no 
cultural support or no philosophical support to prove that 
invented claim.
    Mr. Delahunt. Ms. Gaer?
    Ms. Gaer. Well, I have said before that our understanding 
is that the basic aim of most Uighur Muslims is to try to 
practice religion peacefully and normally. Now, we don't know 
the particulars of this television case or anything else like 
that. I don't think people should be destroying government 
property or even threatening to do that, but we don't know the 
particulars of that case or not. Individual, what a particular 
individual does or doesn't espouse doesn't necessarily mean a 
whole people espouse it.
    So whether or not there is anything to it, to make the 
claim from that that all Uighurs therefore want some form of 
radical Islam seems to me to be a gross leap, at a minimum, 
logical and factual.
    In that context, however, there has been a lot of 
discussion among experts about the fact that repression breeds 
radicalization, and that Chinese repression of religion to the 
degree that we have described to you--where everyone is 
watched, where you can pray, what you can say, where you can go 
and when is so carefully monitored that in a situation like 
that, repression breeds radicalization. That is one of the 
worries we have to be watching for. That is one of the 
strongest reasons for the Chinese to ease up.
    Mr. Delahunt. Ms. Kadeer?
    Mrs. Kadeer. First of all, to clarify is the Uighur 
people's struggle between the Chinese state, this is not based 
upon religion. It is also a fact that after China's military 
takeover of east Turkistan in 1949 and the establishment of the 
Xinjiang Uighur Autonomous Region in 1955 the Uighur people 
have really not enjoyed a day of peace under CCP rule.
    One thing I would like to cite is that Xinjiang's Chief 
Justice, his name is Rozi Ismail, on January 18, 2008, he 
declared at one of the judicial conferences that during the 
previous 5 years the local authorities actually arrest more 
than 15,000 people relates on security and terrorism charges. 
Also, during pre and after Olympic period, the Chinese 
authorities also arrest more than 1,300 Uighurs. So as result, 
so many Uighurs suffering. In fact, many of us here, our 
relatives, are languishing in Chinese prisons or suffering in 
many ways.
    This kind of suffering continues. As you know, there is no 
due process. Uighurs can never hire attorneys to defend the 
charges under Chinese judicial system, and the Chinese 
authorities imprison detainee and execute Uighurs for simply 
expressing their wish. So we just happen to be a people who 
believe in Islam.
    Unlike other groups, we suffer under the same authority and 
regime in Beijing, but it is just because of our religious 
affiliation where our peaceful struggle, legitimate 
aspirations, have been demonized successfully by the Chinese 
authorities and to some extent, unfortunately, accepted by some 
countries, and even the media, to be very cautious about the 
way we peacefully struggle for our freedoms and rights. Just as 
Tibetans, we are struggling in the precise same thing.
    So our struggle is not religious struggle. We are not 
seeking a religious state. Our struggle is precise, like the 
Tibetans, all the other people who are suffering. We want 
freedom. Yes. We did talk about religious persecution and our 
demand for religious freedom, but that is not what inspires us 
to peacefully struggle.
    Which groups of their, you know, unmarried young woman, 
ages from 15 to 25, could be just easily transferred to eastern 
part of China like hundreds of thousands of them? Which people 
wouldn't, you know, express displeasure to that kind of policy? 
So who and which people wouldn't stand up for their rights 
under this kind of six decade long repression? So thank you for 
listening to what I had to say. With regard to Guantanamo, just 
one comment. As long as the Uighurs at Guantanamo are released 
and relocated, resettled in a western democracy, we are happy. 
As long as they are not sent back to China. Thank you.
    Mr. Delahunt. Ms. Abramson?
    Ms. Abramson. Well, the other panelists, I think, have 
articulated it quite nicely. I would simply add in terms of the 
question of Islam as how it is practiced in Xinjiang and the 
role of women, women have played a prominent role, of course, 
in the social life of the Uighurs, and Ms. Kadeer is of course 
strong evidence of that, as others have noted, but also, women 
have played a prominent role in the religious life of the 
Uighurs, and so I think that can help answer the question as 
well.
    Mr. Delahunt. What would the view be, Ms. Abramson, of 
those who are followers of al-Qaeda and Osama bin Laden in 
terms of the form of Islam practiced by the Uighurs in China?
    Ms. Abramson. Yes. The form of Islam as practiced inside of 
Xinjiang contains a lot of features that al-Qaeda would, I 
think, be opposed to, would rally against. So it is, for 
instance, traditional forms of Islam in the region have been 
influenced by Sufi mysticism, by pre-Islamic traditions, and so 
these are things that would be opposed by al-Qaeda and similar 
groups.
    Mr. Delahunt. They would consider the form practiced by the 
Sufis of the Uighur community as being an apostate practice, if 
you will.
    Ms. Abramson. I think that could certainly be likely. Yes.
    Mr. Delahunt. Right. So there is no connection?
    Ms. Abramson. None that I have seen. None that our 
commission has observed.
    Mr. Rohrabacher. Mr. Chairman, if you would indulge me one 
moment?
    Mr. Delahunt. Of course.
    Mr. Rohrabacher. You made several points today about the 
influence that China, the Chinese dictatorship, is having on 
American policy. I think that may be, there are two elements 
coming out of this hearing that I think are of great concern to 
moral people. Number one is the treatment of the 17 individual 
Uighurs at Guantanamo. That is number one. That is a moral 
issue. The second issue that I think is being raised is perhaps 
their plight is reflected in a manipulation of American policy 
by the Communist Chinese dictatorship.
    Let me just note for the record that one of the witnesses 
that was called for this hearing and that we would hope would 
have appeared bowed out of an agreement to come here to testify 
today for fear of retribution by the Communist Chinese.
    So this threat to freedom and this threat that we are 
trying to recognize today to America, and development of our 
own policy can be felt right here in this hearing room today as 
we give our foreign policy about Korea over to the Communist 
Chinese regime, as we make sure that we don't say anything 
about Tibet and repression of their people in Tibet, we 
hesitate to do that because of fear of alienating the regime in 
Beijing. We have felt that same type of influence right here in 
this hearing room.
    Mr. Delahunt. Reclaiming my time. I think it is important 
to note that until today's announcement, and I am not sure, 
again, that it has been confirmed fully by our own Government, 
but the difficulty that the United States had in terms of 
finding a suitable venue for the resettlement of the Uighurs, 
who, according to our system of justice are free to go, was 
extremely difficult because other nations, including western 
democracies, were profoundly concerned about the reaction of 
the Communist Chinese Government.
    I think what we are learning is the influence and the power 
that goes far beyond just this simple issue, Mr. Rohrabacher, 
and it is not a simple issue. Let me pose a question to Mr. 
Turkel and Ms. Kadeer. If Speaker Gingrich had his way and the 
17 Uighurs had been returned to China, what would their fate 
have been in your opinion?
    Mr. Turkel. I appreciate that question. It will be 
equivalent of giving a one way ticket to death. As I stated in 
my testimony, the Uighur region according to various human 
rights reports, the only region in China where people would 
face death penalty for political offenses. The Guantanamo 
Uighurs ultimately stated that they have a philosophical 
animosity toward communism. That itself is a crime. It is a 
punishable crime.
    Second thing, in relation to that Guantanamo saga that we 
been working the last several years, I would like to say this 
on the record, that the Uighurs in Guantanamo not for the 
danger that they posing against the Americans but for the 
danger China causes them. The Bush administration State 
Department publicly stated that it reach out to over 100 
countries and asked them for help and most of them, from what 
we know, refused or declined to help because of possible damage 
to its relationship with Communist China.
    It looks like the American diplomats trying to book a lunch 
with the European allies. China has already arranged a fancy 
dinner with the countries. So that is one possible reason. 
Speaking of that academic, harassing American experts who 
specialize in Uighurs, I have been disturbed and very 
disappointed by our Government's apparent action or silence, 
not protecting American academics who specialize in Uighur 
issue.
    A few years ago there was a book published by Johns Hopkins 
University Society School and more than 10 American scholars 
authored that book and most of them categorically blacklisted 
by Communist China and they cannot travel to China. Exception 
to two of them. Any time they were invited to speak at any 
event, whether it was related to Uighurs or China, they got 
phone call, from what I know, from the Chinese embassy. You 
know, they are academics. They need to continue their academic 
life. The U.S. Government should step up and protect the 
American academics' freedom of research.
    Ironically, United States Government does not apparently 
bother Chinese Communist academics coming to here and sitting 
in a classroom writing and criticizing the government. 
Apparently the Chinese Government another way been very 
successful harassing and bullying around our academics. I don't 
think that should be allowed.
    Mr. Delahunt. Thank you, Nury. Ms. Kadeer, if the Uighur 
detainees whom some suggested be sent back to China, what do 
you believe their fate would have been?
    Mrs. Kadeer. If those Uighurs were returned to China, the 
first thing I believe the Chinese authorities would do is to 
torture them until they sign a confession that they committed 
acts of terrorism, they are terrorists. When I was imprisoned 
for the first 2 years at the solitary confinement they 
basically said I had to sign that I did steal China's national 
and state secrets. They also forced me to appear on a video to 
state that I stole China's state secrets.
    I believe that I was spared from physical torture by the 
Chinese authorities because of international intervention and 
involvement of my case, but I did see Chinese prison guards 
torture Uighurs in front of me in prison. If those 17 Uighurs 
were returned, they would be tortured and forced to sign a 
confession, they would be videotaped and shown on TV, then 
taken for execution. Then they will show the tapes to the U.S. 
Government and to United Nations to prove that those were 
terrorists.
    Then the Chinese Government will claim now United States is 
their buddy and ally in the war on terror. If the Uighurs, you 
know, legitimately stand up to the Chinese Government, they are 
also enemies of the United States and they will be sent back by 
the U.S. to us so we can do whatever with the Uighurs 
ourselves. So I would like to thank the U.S. Government and 
international human rights groups for saving my life, otherwise 
I would be long dead in a Chinese prison myself. Thank you.
    Mr. Delahunt. I would like to pose, and I don't want to go 
too far astray from the focus of this hearing because, as I 
said, there will be other hearings, but we are talking about 
the 17 that have, and are currently, detained. I would like to 
know if any of you have any information in terms of the five 
that were previously released and were resettled in Albania. 
Have they been a source of concern to the Albanians?
    Because I have discussed with Mr. Rohrabacher it would be 
interesting to hear from them via video link from Albania so 
that the American people, not just pundits and commentators and 
people who have a particular political agenda, but unfiltered, 
can hear from them in terms of their experience, and why they 
fled to begin with and why they were apprehended. I think we 
ought to explore the issue or the program that I call the 
bounty program where there is evidence indicating that they 
were not captured, as the ranking member indicated, on the 
battlefield by American military but were bought from 
Pakistanis and Afghanis that received $5,000 in cash.
    That would be a princely some, I dare say, in that part of 
the world. Does anyone have any information regarding those 
five that went to Albania? By the way, I understand that again 
the Chinese Communist Government exercised considerable 
pressure on the Albanians because of that, and I think the 
Albanian Government ought to be acknowledged for a courageous 
act.
    As I indicated, I think it would be very, very informative 
for the American people, for Members of Congress to interview 
those individuals. Let the sun shine in. Let us find out what 
the facts are. Let us pursue the truth. Nury?
    Mr. Turkel. Yes. I personally have met with all of the five 
Uighurs who were released into Albania both in Guantanamo and 
Albania. I visited them several times in prison and went to 
help them with the settlement matters in Albania. While they 
were in prison they are strikingly supportive American 
Government and expressed their support and continues to talk 
about their admiration.
    In fact, one of them, Abu Bakker Qassim, in 2006 wrote an 
op ed for the New York Times and expressed his admiration for 
American Government, and American ideals and democracy, 
particularly for this institution, the United States Congress. 
For their current life, Abu Bakker is trying to reestablish his 
life by getting into restaurant business, and the youngest of 
those five, Ayoub Haji, is currently attending a university 
which is funded I believe by the State of New York. He speaks 
fluent English. Sometimes I chat with him on Facebook.
    He recently sent me pictures with a group of young ladies 
bare armed holding them, their arms. As for Adil Hakimjan, that 
is the gentleman who recently granted asylum in Sweden, Swedish 
Government, Swedish security officials, issued a testimony 
affidavit stating that Adil Hakimjan posed no security threat 
to Swedish society, and thereby, his asylum application has 
been accepted. These stories speak<greek-l>s deg. volume and 
disproves all invented claims that the Uighurs, whether they 
are in Guantanamo or in Albania, poses security threat, which 
is false.
    Mr. Delahunt. Ms. Kadeer?
    Mrs. Kadeer. Actually, I got a call from Abu Bakker in 
Albania recently and during our conversations he basically 
said, you know, the 17 at Guantanamo are just like us because 
of their long-term incarceration there, their unjust 
incarceration there. Of course they are very frustrated, but 
once they are released we will explain to them how because of 
the United States that our lives are saved, we were not 
returned to China so that we can explain to them, you know, 
what is a situation that now we are alive and working in 
Albania.
    Also, the vice president of the World Uighur Congress, Mr. 
Askar Jan, he visits them in Tijuana and talked to them, had a 
very nice conversation as well some time ago. During the 
conversation the Uighurs in Albania basically told him that. At 
the moment there are hundreds of thousands of Uighurs, innocent 
Uighurs are being imprisoned in Chinese prisons. Most of them 
cannot defend their charges. Many of them are being taken out 
and executed by the Chinese authorities.
    For them, their incarceration is illegal and unjust, and of 
course they are not happy. Nobody is going to be happy if that 
person is unjustly imprisoned by any government. If it was not 
the United States, they may long be sent back to China for 
execution and they wouldn't be----
    Mr. Delahunt. They would prefer to be in Guantanamo than in 
China.
    Mrs. Kadeer. In a way, yes.
    Mr. Delahunt. Ms. Gaer?
    Ms. Gaer. Thank you very much. I have no specific 
information about the Uighurs who are in Albania but you 
mentioned in your very kind and generous introduction that I am 
a member of the U.N. Committee against Torture and its follow-
up rapporteur. In a case where individuals are not sent back to 
a country that is seeking them for prosecution and another 
country sends them to a third country, it is quite common for 
the committee to expect the government concerned to do its own 
follow-up monitoring.
    So while you said that you would like to go and see what 
the situation is in Albania, and that would be a good thing to 
do, I would submit that the United States Government has an 
obligation to do its own follow-up and to be prepared to be 
reporting on that, because for sure they will be asked that the 
next time they are at the U.N. on this issue.
    Mr. Delahunt. Thank you. I think it was Nury Turkel that 
indicated, and maybe it was Ms. Kadeer, that just recently 
Pakistan returned two Uighur individuals to China.
    Mr. Turkel. Actually, Congressman, it is 10.
    Mr. Delahunt. Ten.
    Mr. Turkel. Yes, 10 Uighurs. Uighar-American Association I 
believe issued press release. I would be happy to provide a 
copy to your office with specific information about that 
deportation which has been a practice, actually, by Pakistani 
authorities.
    Mr. Delahunt. Because of pressure by the Communist Chinese 
Government?
    Mr. Turkel. Yes. They have very intimate cooperation and 
working relationship when it comes to Uighurs.
    Mr. Delahunt. I wonder if the Chinese are providing 
billions and billions of dollars of support for Pakistan.
    Mr. Turkel. The irony is that the Uighurs pay price, both 
domestically, internationally, for being a Muslim, and yet, 
none of the Muslim countries ever speak up against Chinese 
regression, particularly on the religious freedom issue. On the 
other hand, they help collaborate. They are an accomplice.
    Mr. Rohrabacher. Mr. Chairman, I think that is a very 
significant point because let us just note that so many 
countries that just say horrible things about the United States 
of America, and here we have an example, that the prisoners 
would rather stay in prison in Guantanamo than go back to 
China, but these other countries that so harshly criticize the 
United States don't speak up against the brutal repression that 
is going on in China, even to the point where these people 
would rather stay in prison than go back to that. Yes. And 
Muslim countries.
    Mr. Turkel. Specifically, Saudi Arabia. It has huge 
leverage in its dealing with a Communist state. They put quotas 
and make it difficult for even Uighurs to go to hadj----
    Mr. Rohrabacher. That is very significant.
    Mr. Turkel [continuing]. Who are physically and financially 
capable of doing so.
    Mr. Rohrabacher. That is very significant. Thank you for 
bringing that up.
    Mr. Delahunt. Do you believe that is as a result of 
internal concerns because clearly Saudi Arabia has its unique 
brand or its unique version of Islam? Saudis are Wahabis?
    Mr. Turkel. No, not because of the version of Islam that 
they practice, but because of the economic and diplomatic 
influence that----
    Mr. Delahunt. Of China. Of Communist China.
    Mr. Turkel. Yes. Ms. Kadeer, would you wish to respond?
    Mrs. Kadeer. Yes. There is a Uighur association in 
Pakistan. We communicate with them all the time. They basically 
told us like with regard to the Uighurs recently deported to 
China by the Pakistani authorities it was more like a tradeoff. 
It is Uighur association people knew some of the Uighurs were 
deported back to China.
    They said they were just students, some business people 
here for whatever reason, you know, wanted by the Chinese 
authorities, put pressure on Pakistan, then Pakistan detained 
them and deport them to China in exchange for some $700 million 
military aid. The Uighurs there said it was on their newspaper 
as well. The Pakistani, in order to get military aid from 
China, basically upon Chinese demands deporting all those 
Uighurs back. Thank you.
    Mr. Delahunt. Well, thank you for that answer. I think, Mr. 
Rohrabacher, that we should invite the Pakistani ambassador to 
our office to have a discussion about this particular practice. 
Ms. Gaer?
    Ms. Gaer. Well, I just wanted to add to that that when the 
U.N. Committee against Torture has reviewed Kyrgistan, 
Uzbekistan, Russia, even other countries in the region, we have 
found in many cases people have been returned rather casually, 
when it was clear the individual would be in the hands of the 
security police in prison and likely to be subjected to 
torture. These countries haven't followed-up. So if you are 
going to have a conversation with the Pakistanis, I could give 
you a few other names to add to that list.
    Mr. Delahunt. Well, Ms. Gaer, Mr. Rohrabacher and I are 
part of a congressional delegation going to Moscow at the end 
of this month. We will raise that issue with the Russian 
authorities and ask them to review their own practices, as well 
as to communicate with other governments in the region. Ms. 
Kadeer, you talked about, and we will have a hearing in front 
of this committee on the ETIM, the so-called terrorist group. 
We find it interesting that all of a sudden they appeared out 
of thin air.
    Now, you are the leader not just within the diaspora, but 
among Uighurs worldwide. I think it was your testimony that 
indicated you had never heard of ETIM until just recently, 
within the past 6 or 7 years. Can you tell us something about 
the ETIM? Because we have colleagues that are convinced, and 
there are scholars, alleged scholars, maybe they get their 
information from the Chinese intelligence services as well, who 
speak about the ETIM with some certitude?
    Mrs. Kadeer. The first time I heard about ETIM was after my 
release into the United States. It seems the Chinese Government 
also put this name, aggressively pushing this name, 
organization on other countries, including INTERPOL. We know 
some people now on YouTube making outrageous claims, real 
simply. I really want to investigate who these people are, why 
they are saying or doing what they are saying, but because we 
don't have the capacity or the manpower to find out. I am 
really interested in finding out who these people are.
    We have some 51 organizations in the diaspora. We know all 
of them. We have close working relations with them. All of 
those organizations, none of them knew who these people are or 
what is ETIM. We are aware that it seems the Chinese Government 
linked all the Uighur dissidents overseas, you know, peaceful 
dissidents, with ETIM and put their names on INTERPOL list so 
that those people cannot travel in different countries.
    Then they can be detained or arrested and deported back to 
China. So now our concern is the Chinese Government, in 
addition to the so-called ETIM member list, put our names onto 
the INTERPOL list as well. So I have deep profound suspicion on 
this ETIM and what it wants to do.
    Mr. Delahunt. I want to recognize my friend from the 
Pacific where it would appear that the Uighurs are heading, to 
Palau, but what I want to do is, and I don't want to appear to 
be a conspiracy theorist but the more I am hearing, is it 
within the realm of possibility that the ETIM is a fiction of 
the Chinese intelligence services to use as a mechanism to 
defame Uighurs and, in particular, the detainees at Guantanamo? 
Mr. Turkel?
    Mr. Turkel. Mr. Chairman, in late summer 2002 I received an 
email from a friend who is a senior official at the U.S. 
Embassy in Beijing asking me what do I make of this 
designation. My response was shock. I said I never heard of 
this organization. My friend did not believe me because he 
thinks that I know every single Uighur organization around the 
world. That shows, I am not signifying my knowledge of the 
Uighur organization, but that response was pretty common for 
vast majority of the Uighurs when Deputy Secretary of State 
Armitage made that announcement in summer of 2002.
    To this day, I haven't heard a persuasive reasoning or 
explanation why ETIM was designated as a terrorist 
organization. I cannot say that that organization is a 
fictional or created by the Chinese Government, but its 
existence, its goals is questionable. I never doubt China 
Government's ability to create something like that for their 
own propaganda purposes.
    Mr. Delahunt. I am going to just go--my colleague is going 
to leave us. He wants to make a final observation.
    Mr. Rohrabacher. I have to run to the floor for this vote 
and I have some business down there as well, but let me just 
thank the chairman, thank the panel today. This has been a 
fascinating and provocative hearing. I would suggest to the 
chairman that we have criticized certain people who have been 
on the other side of this issue, both of us have criticized 
them, for example, former Speaker Gingrich.
    I would recommend, and I believe the chairman would be 
supportive, of perhaps having some of those critics who we 
criticized here to have an exchange of views and putting them 
on the record on this issue. So, with that said, let us invite 
former Speaker Gingrich here to defend some of these things he 
has been saying.
    Mr. Delahunt. Mr. Gingrich is always welcome in front of 
this committee.
    Mr. Rohrabacher. All right.
    Mr. Delahunt. I thank my friend. Let me yield to the 
gentleman from the Pacific, Mr. Eni Faleomavaega, for any 
questions he might have. We have got about 8 minutes left.
    Mr. Faleomavaega. Mr. Chairman, my apologies for being 
late. I had a mark-up at another committee. I do want to 
commend you for your leadership in bringing this hearing before 
our Subcommittee on Human Rights, and especially to have our 
guests here to testify concerning the status of the Uighur 
people. I notice with tremendous interest Ms. Kadeer appears to 
me as some person of strong character, and certainly with that 
kind of leadership as the mother of the Uighur people, I want 
to say that I have nothing but admiration and respect for all 
that she is trying to do on behalf of her people.
    I know we have a vote, but I do want to say for the record, 
Mr. Chairman, I look forward in working with you closely to see 
what we can do to be of assistance to the Uighur people. In my 
capacity as chairman of the Asia-Pacific Subcommittee, which 
also covers this issue, I think we are both members of that, 
dealing with the officials in the Government of China, I do 
want to say for the record that I look forward in working with 
you and also with the leaders and members of the Uighur 
community concerning this. Again, Mr. Chairman, thank you.
    Mr. Delahunt. Thank you, Eni. Since it looks like we are 
running out of time let me express my gratitude for your 
presence here, for informing us, for educating us. I suspect 
that we will be inviting each of you back on different 
occasions because this is something that should not just be 
dismissed because hopefully the early reports are accurate and 
the Uighur detainees will leave Guantanamo. I believe there is 
a lot to learn, and I think it is important for the American 
people to understand fully the story of the Uighurs and the 
Uighur 22 detainees, how they arrived there and what has 
happened since.
    Mr. Faleomavaega. Will the gentleman yield?
    Mr. Delahunt. I do.
    Mr. Faleomavaega. I have been to the island of Palau a 
couple of times. It is a beautiful group of islands. I am very 
dear friends with the President of Palau, by the way. 
Hopefully, Mr. Chairman, and maybe at some time in the future 
we could have a joint hearing.
    Mr. Delahunt. I think we should. I think we should do a 
field trip, in fact.
    Mr. Faleomavaega. In fact, we are going to be there. In 
about 2 months I will be traveling to Palau. So please.
    Mr. Delahunt. Earlier, Eni, I quoted the words of George 
Washington who stated that America should always welcome the 
virtuous and the persecuted, that part of mankind, to our 
shores. Maybe your friend, President Toribiong, is a new George 
Washington.
    Mr. Faleomavaega. Well, I must say--will the gentleman 
yield?
    Mr. Delahunt. Of course.
    Mr. Faleomavaega. When you said something about liberty, I 
always think of that statue in New York City. I think it is 
probably the most classic statement about our country welcoming 
anybody from any part of the world.
    Mr. Delahunt. Particularly the oppressed.
    Mr. Faleomavaega. Yes. So with that, Mr. Chairman, thank 
you. I look forward in meeting with our friends from Uighur.
    Mr. Delahunt. I see Ms. Gaer wants to make a quick comment. 
We are running out of time.
    Ms. Gaer. It was on your question, Mr. Chairman, about 
whether ETIM existed or didn't. When we visited China I asked 
that question. I asked it of State Department officials and I 
asked it of the Communist Party leadership in the Xinjiang 
Province that we met with. The answer from the State 
Department--well, you can ask the State Department. I think it 
would be very valuable if there were a formal request to the 
State Department.
    Mr. Delahunt. You can reveal to us what they said to you.
    Ms. Gaer. They said there is a serious problem with 
bombings and terrorism in China, specific organizations. They 
were not in a position to comment on specific organizations. I 
think they might comment to you on specific organizations.
    Mr. Delahunt. Well, thank you. Again, thank you all. It has 
been an excellent hearing.
    [Whereupon, at 11:51 a.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               <greek-l>Minutes deg.

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
